Washington, D.C. 20530

June 30, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 2054
Re: Tuan Ngoc Luong v. United States of America,
S.Ct. No. 20-7998
Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on May 7, 2021. Although the
government waived its right to file a response, the Court has requested that a response be filed.
The government’s response is now due on July 6, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including August 5, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-7998
LUONG, TUAN NGOC
USA

JOHN PAUL REICHMUTH
OFFICE OF THE FEDERAL PUBLIC DEFENDER
1301 CLAY STREET
STE. 1350N
OAKLAND, CA 94612
510-637-3500
JOHN_REICHMUTH@FD.ORG

